              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Fiscal Year 2011 Work Performed
Under the Work for Others Program
at Sandia National Laboratories




OAS-L-13-14                       September 2013
                                     Department of Energy
                                       Washington, DC 20585

                                          September 25, 2013


MEMORANDUM FOR THE MANAGER, SANDIA FIELD OFFICE


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Fiscal Year 2011 Work Performed
                         Under the Work for Others Program at Sandia National Laboratories"

BACKGROUND

The attached report presents the results of the audit of Sandia National Laboratories' (Sandia)
Fiscal Year (FY) 2011 Work for Others (WFO) Program. The Office of Inspector General
contracted with an independent certified public accounting firm, KPMG, LLP (KPMG), to assess
the internal control structure at Sandia and determine whether it is effective in achieving the
current goals and objectives of the WFO Program.

The Department of Energy (Department) and its semi-autonomous National Nuclear Security
Administration (NNSA) provide research and technical assistance to other Federal agencies on a
reimbursable, full cost recovery basis through the WFO Program. WFO agreements are also
used as a mechanism through which industry can utilize expertise and facilities at Sandia, a
Federally Funded Research and Development Center. Entities may sponsor Sandia scientists to
conduct research in a specific area if researchers can be identified with appropriate and unique
capabilities, as well as interest and availability. For FYs 2009 to 2011, Sandia's WFO activities
comprised between 33 and 39 percent of its annual funding. Specifically, WFO funding was
$894.6 million in FY 2009, $925.4 million in FY 2010 and $790.8 million in FY 2011.
However, these figures do not include classified WFO projects, which were not included in the
scope of this audit.

RESULTS OF AUDIT

KPMG concluded that, except for the findings detailed in the attached report, Sandia implemented
internal controls and compliance procedures in FY 2011 that met the Department's WFO Program
requirements, as stated in Department regulations, guidance and applicable contract provisions.
However, KPMG identified several opportunities to strengthen controls over WFO costs.
Specifically, KPMG found that:

    • Costs relating to Sandia's WFO support organizations were included in the general and
      administrative cost pool that was allocated to both WFO projects and other
                                                        2

        Department projects on an organization-wide basis, rather than using an allocation base
        that bears a more direct causal beneficial relationship to the support organizations' costs.
        KPMG estimated that the Department would have an annual savings of approximately
        $2.3 million by implementing a separate indirect rate for these support organizations. 1
        KPMG recommended that Sandia consider the cost-benefit of removing the WFO support
        organization costs from the general and administrative indirect cost pool, and establish a
        separate indirect cost pool for allocating these costs to WFO projects and other projects
        supported by the WFO support organization on a base that has a more direct causal
        beneficial relationship to the organizations' functions. This finding is similar to one
        identified by KPMG at Lawrence Berkeley National Laboratory (Berkeley) in our report
        on Fiscal Year 2011 Audit of the Work Performed Under the Work for Others Program
        at Lawrence Berkeley National Laboratory, (OAS-L-13-10, June 2013), which found that
        costs relating to Berkeley's WFO support organization were included in the general and
        administrative cost pool that is allocated to both WFO projects and other Department
        projects on an organization-wide basis. KPMG estimated that the annual savings to
        Department by implementing a separate indirect rate for this support organization at
        Berkeley would be approximately $400,000.

      • Year-end indirect cost variances were not allocated to WFO projects, and variances were
        allocated to Department-funded projects on a net basis, rather than allocating variances in
        proportion to the amounts originally allocated for each indirect cost pool. KPMG
        estimated that in FY 2011, this practice resulted in approximately $900,000 of over-
        recovery of costs that benefitted Department projects, rather than WFO projects. KPMG
        recommended that Sandia analyze year-end indirect cost pool variances to ensure that its
        mid-year rate changes result in immaterial variances at the end of the year, or, in the case
        of material variances, adopt a different methodology for allocation to both Department-
        funded and WFO projects. In addition, Sandia should analyze the potential cost effects of
        allocating year-end variances separately for the various indirect cost pools, or for the
        more significant cost pool variances, so that significant variances are equitably allocated
        based on a more direct relationship to the original allocation.

      • Pension costs of $15 million were transferred from fringe benefits to other indirect cost
        pools, contrary to Sandia's disclosed accounting practices. As such, the FY 2011 fringe
        benefit rate was understated and other indirect cost rates were overstated, which could
        have affected total indirect costs charged to WFO and other Department projects because
        the various indirect rates had different allocation bases. KPMG recommended that
        Sandia maintain consistency with cost accounting practices disclosed in its Cost
        Accounting Standards Board Disclosure Statement.

Further, KPMG noted that Sandia's Independent Audit & Advisory Services issued a Labor Floor
Check report, dated October, 2, 2012, which identified findings related to inconsistent and
inequitable charging of labor costs that could affect the accuracy of WFO project costs. Because
Sandia agreed to the findings and has corrective action plans in process, KPMG did not repeat
the related findings and recommendations in its report.



  1
    Sandia's WFO/Cooperative Research and Development Agreement management organization is responsible
  for submitting proposals and accepting all awards from non-Department sponsors, and post award budgetary
  oversight is provided by the Budget and WFO Financial Management organization.
                                                   3


RECOMMENDATIONS

We recommend that the Manager, Sandia Field Office, ensure that Sandia:

     1. Consider the cost-benefit of removing the WFO support organizations' costs from the
        general and administrative indirect cost pool and establish a separate indirect cost pool for
        allocating those costs to WFO projects and other projects supported by the WFO support
        organizations on a base that has a more direct causal beneficial relationship to the
        organizations' functions;

     2. Analyze year-end indirect cost pool variances to ensure that its mid-year rate changes
        result in immaterial variances at the end of the year, or, in the case of material variances,
        adopt a different methodology for allocation to both Department-funded and WFO
        projects;

     3. Analyze the potential cost effects of allocating year-end variances separately for the
        various indirect cost pools, or for the more significant cost pool variances, so that
        significant variances are equitably allocated based on a more direct relationship to the
        original allocation; and

     4. Maintain consistency with cost accounting practices disclosed in its Cost Accounting
        Standards Board Disclosure Statement.

MANAGEMENT RESPONSE AND AUDITOR COMMENTS

NNSA generally concurred with the findings and recommendations. NNSA stated that it will
direct Sandia's internal auditors to perform a follow-on assessment to confirm whether the WFO
support organization costs meet the definition of general and administrative costs under
paragraph 30(a)(6) of Cost Accounting Standard (CAS) 410 entitled Allocation of Business Unit
General and Administrative Expenses to Final Cost Objectives. If it is determined that some or
all of the WFO support functions do not meet the definition of G&A, then an assessment will be
made as to the treatment of the costs under CAS 418, Allocation of Direct and Indirect Costs.
NNSA also stated that the assessment will be accomplished while taking into consideration the
cost benefit of the change to include the materiality of the costs in relation to the total general
and administrative pool cost and the administrative costs of managing a separate rate.

Concerning the allocation of year-end indirect cost variances to WFO projects
(Recommendations 2 and 3), NNSA agreed that controls should be in place to ensure year-end
variances are minimized and appropriately allocated as necessary. NNSA noted that Sandia
currently utilizes a retroactive variance distribution process to dispose of indirect rate variances,
and should continue their current practice of distributing immaterial year-end variances to DOE
projects. NNSA will ensure that Sandia continues to monitor anticipated variances throughout
the fiscal year to ensure year-end variances remain immaterial. In addition, NNSA stated that it
believes the practice of distributing all year-end variances on a net basis is acceptable as long as
the variances are immaterial. NNSA will request that Sandia formally document a process for
allocating variances should they become material and ensure it complies with the Cost
Accounting Standards.
                                                  4

Finally, regarding consistency with cost accounting practices, NNSA stated that it will continue to
monitor Sandia's practices for consistency with CAS.

Management's corrective actions are responsive to our recommendations.

PERFORMANCE AUDIT

KPMG conducted this performance audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and the Department's Office of Inspector
General Audit Manual as appropriate. Government Auditing Standards require that KPMG plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on the audit objective.

The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances in which KPMG did not comply, in all
material respects, with the audit requirements. KPMG is responsible for the attached report dated
July 18, 2013, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
    Attachment 1




1
    Attachment 1 (continued)




2
    Attachment 1 (continued)




3
    Attachment 1 (continued)




4
    Attachment 1 (continued)




5
    Attachment 1 (continued)




6
    Attachment 1 (continued)




7
    Attachment 1 (continued)




8
    Attachment 1 (continued)




9
     Attachment 1 (continued)




10
     Attachment 1 (continued)




11
     Attachment 1 (continued)




12
     Attachment 1 (continued)




13
     Attachment 1 (continued)




14
     Attachment 1 (continued)




15
     Attachment 1 (continued)




16
     Attachment 1 (continued)




17
     Attachment 1 (continued)




18
     Attachment 2




19
     Attachment 2 (continued)




20
     Attachment 2 (continued)




21
     Attachment 2 (continued)




22
     Attachment 2 (continued)




23
     Attachment 2 (continued)




24
                                                                    IG Report No. OAS-L-13-14

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

                 U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

    Your comments would be appreciated and can be provided on the Customer Response Form.
